CERTIFICATE OF SERVICE
No. 20-6484
Willie Tyler,
Petitioner

v.
United States,

Respondent.
I, Quin M. Sorenson, do hereby certify that, on this 21st day of April, 2021, I
caused one copy and an electronic copy of the Reply Brief of Petitioner in the
foregoing case to be served electronically and by first class mail, postage prepaid, on
the following party:
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
SupremeCtBriefs@USDOJ.gov
(202) 514-2217

/s/ Quin M. Sorenson
QUIN M. SORENSON
FEDERAL PUBLIC DEFENDER’S
OFFICE
100 Chestnut Street, Ste 306
Harrisburg, PA 17101
(717) 782-2237

